Before the Committee on Transportation and
Infrastructure
Subcommittee on Aviation
United States House of Representatives

For Release on Delivery
Expected at
2:00 p.m. EST
                          Reauthorization of the
                          Federal Aviation
Wednesday
February 12, 2003
CC-2003-058

                          Administration



                          Statement of
                          The Honorable Kenneth M. Mead
                          Inspector General
                          U.S. Department of Transportation
Mr. Chairman and Members of the Subcommittee:


I appreciate the opportunity to testify on reauthorization of the Federal Aviation
Administration (FAA).       As the Subcommittee is aware, FAA has a new
Administrator, Ms. Blakey, who has a wealth of experience in safety. Also, like
former Administrator Garvey, she has a 5-year term, a reform established by the
Congress to bring stability and continuity in leadership. Before this reform, the
average tenure of an FAA Administrator was about 18 months. Stability in FAA’s
leadership will be essential in addressing the formidable challenges facing FAA
today. Administrator Blakey will require substantial support from the Congress
and the Administration to address them.


Reflecting on the past 5 years, stability in leadership contributed materially to
what we consider a sustained and improved focus on safety and an overall good
safety record, successfully managing the Y2K computer problem, obtaining a
clean opinion on agency-wide financial statements, bringing new Free Flight
controller tools on-line, deploying the Display System Replacement on time and
within budget, expeditiously shutting the system down safely on September 11th,
improving communications links with the Department of Defense since
September 11th, and setting in motion required actions to prevent a repeat of the
summer of 2000 when the aviation system experienced unprecedented delays,
flight cancellations, and near gridlock.


Today, there are four central issues that need to be considered in FAA’s upcoming
reauthorization: (1) making FAA a performance-based organization by controlling
the costs of its operations and cost growth in major acquisitions; (2) building
aviation system capacity and more efficient use of airspace to prevent a repeat of
the summer of 2000; (3) striking a balance on how airport funds will be used for



                                           1
aviation system capacity, airport safety, and security; (4) aviation safety as FAA’s
top priority.


Major Improvements Are Needed to Position FAA as a Performance-Based
Organization. In 1996, FAA was given two powerful tools–personnel reform and
acquisition reform. FAA was also directed to establish a cost accounting system
so that it would know, at the facility level, where it was spending money and for
what. The expectation was that by relieving the agency from Government rules
and establishing a cost accounting system, FAA would operate more like a
business—that is, services would be provided to users cost effectively and air
traffic control modernization programs would be delivered approximately on time
and within budget.    In the Aviation Investment and Reform Act for the 21st
Century (AIR-21), Congress took additional steps to make FAA more business-
like by reorganizing Air Traffic Control’s management structure and establishing a
Chief Operating Officer position.


Seven years later, we do not see sufficient progress toward achieving those
outcomes. The growth in FAA’s budget—from about $8.2 billion in fiscal year
(FY) 1996 to $14 billion in FY 2004 represents an increase of $5.8 billion. About
one-third of this increase is attributable to higher authorized amounts for airport
funding and the remainder attributable to increases in the operations and
modernization accounts.    During this period, we have seen large increases in
workforce costs, as well as cost overruns and schedule slips in major acquisitions.
Continued growth in those categories of that magnitude is unsustainable, given the
fiscal situation and multibillion-dollar declines in projected Aviation Trust Fund
receipts. FAA cannot assume that a robust stream of Trust Fund receipts or other
revenue will be available to cover its cost growth. In fact, current estimates show
that over the next 4 years, Trust Fund tax receipts are expected to be more than
$10 billion less than projections made in April 2001.


                                         2
We do not believe the answer to cost growth at FAA lies in an increase in taxes,
fees, or other charges.    Most airlines are in extreme financial distress, and
passengers already pay a significant amount in taxes, fees, and charges—nearly
26 percent of a $100 non-stop ticket goes to taxes and fees; a $200 single-
connection round trip ticket includes about $51 or 26 percent in taxes and fees.
Just like the airlines have had to rethink the basics of their business, FAA also
must re-examine how it does business. FAA needs to redouble its efforts to
become performance based in deeds as well as in words. This, in our opinion, is a
primary challenge facing FAA and ought to be a major focus of the upcoming
reauthorization.


To date, the most visible results of personnel reform are soaring workforce costs
and significantly higher salaries.     While during this period there has been
improved labor/management relations with controllers (FAA’s largest workforce),
FAA’s operations budget, which is mostly payroll, has increased 65 percent or
$3 billion. The average base salary for fully certified controllers has risen to over
$106,000—a 47 percent increase over the 1998 average of $72,000. Because of
collective bargaining agreements, only about 36 percent of FAA employees
receive pay increases based on individual performance, and the remainder of FAA
employees receive largely automatic pay increases.


We also found that there are somewhere between 1,000 and 1,500 side bar
agreements or Memorandums of Understanding (MOUs) that FAA managers have
entered into. Many serve legitimate purposes, but MOUs can add millions to
personnel costs. However, FAA management does not know the exact number or
nature of these agreements, there are no established procedures for approving
MOUs, and their cost impact on the budget has not been analyzed. We briefed



                                         3
Administrator Blakey of our concerns regarding MOUs, and we are working with
the Administrator and her staff to address this issue.


Acquisition reform results have been mixed—contracts are awarded more
expeditiously, and FAA’s “build a little, test a little” approach has clearly avoided
failures on the scale of the multibillion-dollar Advanced Automation System
acquisition. In addition to progress with Free Flight Phase 1, FAA has deployed
systems such as the Display System Replacement (new controller displays for en
route facilities) and the initial phase of HOST (computer that receives, processes,
and tracks aircraft movement throughout domestic and en route airspace) on time
and within budget. But the bottom line is that significant schedule slips for major
air traffic control acquisitions and substantial cost growth are all too common. For
example, the Standard Terminal Automation Replacement System (STARS) (new
controller displays and computer equipment for terminal facilities) has slipped at
least 4 years, and the Wide Area Augmentation System (WAAS) (a new satellite-
based navigation system) has slipped 5 years. Moreover, five major projects we
track have experienced cost growth of $3 billion–the equivalent to a full year’s
budget for modernization.


As for FAA’s Cost Accounting System (CAS), it was to be completed by 1998 at a
cost of $12 million. However, after over 6 years of development and a price tag of
$38 million, FAA is now planning to complete its CAS by September 2003,
assuming no further slippage. Additionally, we found that in two of the five lines
of business where the CAS has been implemented, problems exist such as not
allocating costs to individual facilities, which limit the system’s usefulness. A
CAS is essential for setting benchmarks and measuring performance, and it would
help greatly in determining how many controllers we need and where we need
them. This is important given projections of controller retirements.



                                          4
Regarding the 2000 FAA reauthorization reforms, these reforms established the
position of Chief Operating Officer and an Air Traffic Control (ATC)
Subcommittee, which was empowered to, among other things, approve budgets,
strategic plans, and plans for improving the safety and modernization of the
ATC system. The Chief Operating Officer position has never been filled, and the
ATC Subcommittee has not fulfilled its charter.          The reauthorization process
offers an opportunity to rethink the powers and responsibilities of the ATC
Subcommittee in terms of how it will fit within the FAA organizational structure,
what it can realistically be expected to do, and how it will interface with the
current powers and duties of the Administrator.           We understand the ATC
Subcommittee is currently working to develop performance metrics. One series of
metrics, in our opinion, should include cost control metrics and the extent to which
acquisitions are brought in on time and within budget.


Now, I would like to briefly discuss capacity, airport improvement funds, and
safety.


Building Aviation System Capacity and More Efficient Use of Airspace to
Prevent a Repeat of the Summer of 2000.            FAA needs to be strategically
positioned for when demand returns through a combination of new runways, better
air traffic management technology, airspace redesign, and greater use of non-hub
airports; it would be shortsighted to do otherwise. FAA’s Operational Evolution
Plan (OEP) is the general blueprint for enhancing capacity. It was a good plan,
but it has been impacted by September 11th and the financial condition of the
airlines. Given the slowdown in travel, now is a good time to determine exactly
what is needed.


FAA is working to retool the OEP. FAA needs to synchronize the OEP with the
agency’s budget, set priorities, and address uncertainties with respect to how


                                         5
quickly airspace users will equip with new technologies. It also needs to ensure
the costs associated with multibillion-dollar modernization projects not in the OEP
are considered when establishing priorities and are integrated with OEP initiatives.
It is a good time to rethink what reasonably can be accomplished over the next 3 to
5 years.


Striking a Balance Between How Airport Funds Will Be Used to Pay for
Security and Capacity. A major issue for airports is funding the next phase of
explosives detection systems (EDS) integration.           Thus far, nearly all EDS
equipment     has    been    lobby-installed.       The    Transportation        Security
Administration’s (TSA) planned next step (integrating the EDS equipment into
airport baggage systems) is by far the most costly aspect of full implementation.
The task will not be to simply move the machines from lobbies to baggage
handling facilities but will require major facility modifications. We have seen
estimates that put the costs of those efforts at over $3 billion, and this is an almost
immediate issue facing the airports.


A key question is who will pay for those costs and how. While the current Airport
Improvement Program (AIP) has provided some funding in the past for aviation
security, we urge caution in tapping this program until FAA has a firm handle on
airport safety and capacity requirements.         In FY 2002, airports used over
$561 million of AIP funds for security-related projects. In contrast, only about
$56 million in AIP funds were used for security in FY 2001. Continuing to use a
significant portion of AIP funds and passenger facility charges (PFCs) on security
projects will have an impact on airports’ abilities to fund capacity projects.


Safety As FAA’s Top Priority. The U.S. air transport system is the safest in the
world, and safety remains the number one priority for FAA. Until the recent Air



                                          6
Midwest crash in Charlotte, there had not been a fatal commercial aviation
accident in the United States in 14 months.


Progress has been made this past year in reducing the risk of aviation accidents
due to operational errors and runway incursions, but both remain much too high.
Operational errors and runway incursions should remain an area of emphasis for
FAA because at least three serious operational errors and one serious runway
incursion (in which collisions on the ground were narrowly averted) occur, on
average, every 10 days.


In the current financially-strapped aviation environment, FAA must remain
vigilant in its oversight to sustain a high level of aviation safety. FAA has
increased surveillance at financially distressed air carriers and has recognized the
need to heighten surveillance.     We see the need for heightened surveillance
continuing for some time to come and plan audit work to stay on top of this.
Additionally, we are encouraged by the Administrator’s commitment to programs
such as Flight Operational Quality Assurance (FOQA). FOQA provides objective,
quantitative data on what occurs during flight rather than what is subjectively
reported by individuals. FAA could use these data to identify safety trends and
accident precursors.


A word of caution: FAA needs to pay close attention to the level of oversight it
provides for repair stations. In the past 5 years, there has been a significant
increase in air carriers’ use of these facilities. In 1996, major air carriers spent
$1.6 billion (37 percent of their total maintenance costs) for outsourced aircraft
maintenance. Whereas, in 2001, the major air carriers outsourced $2.9 billion
(47 percent of their total maintenance costs). FAA needs to consider this shift in
maintenance practices when planning its safety surveillance work. We are now
completing a review of FAA oversight of repair stations.


                                         7
Introduction

The aviation landscape has changed dramatically since FAA was last reauthorized.
Airlines were in much better financial shape, the Trust Fund had collected more
tax revenue than ever before, and future estimates projected even higher revenues
coming in. Two years ago, we were focused on alleviating aviation gridlock and
airline delays, and improving customer service—all of these issues are now on the
back burner.

Today, reauthorizing FAA programs has to be viewed against the backdrop of the
financial health of the industry, the decline in travel, and how airlines are
revamping operations. Two large network carriers have entered into bankruptcy,
and others are taking steps to avoid similar courses. Overall, domestic
enplanements were down nearly 18 percent in November 2002 compared to
November 2000.

As a result of the slow economy and the decline in air travel, there has been a
significant decrease in tax revenues coming into the Trust Fund. Projected tax
revenue from the Aviation Trust Fund for FY 2004 has dropped from
approximately $12.6 billion estimated in April 2001 to about $10.2 billion
estimated in January 2003. Current estimates show that over the next 4 years
(FY 2004 through FY 2007) Aviation Trust Fund tax revenues are expected to be
about $10 billion less than projections made in April 2001.

                PROJECTED TRUST FUND TAX REVENUE
                           ($ in Billions)
      $16.0                                                     $14.1           $14.9
      $14.0                                  $13.3
              $11.9          $12.6                                                      $12.2
      $12.0                                           $10.9             $11.5
                                     $10.2
      $10.0           $9.4
       $8.0
       $6.0
       $4.0
       $2.0
       $0.0
               FY 2003        FY 2004         FY 2005           FY 2006          FY 2007

                             April 2001 Estimate     January 2003 Estimate



Although revenues to pay for FAA’s programs have fallen dramatically, FAA’s
costs have not. FAA’s budget has increased nearly $6 billion over the past
7 years–escalating from $8.2 billion in FY 1996 to $14 billion in FY 2004. About
one-third of this increase is attributable to higher authorized amounts for airport



                                              8
funding. However, during this period, we have seen large increases in workforce
costs, as well as cost overruns and schedule slips in major acquisitions.

AIR-21 gives priority to FAA’s Airports and Modernization accounts by requiring
that revenue from the Trust Fund be allocated to those accounts before allocating
any revenue to FAA’s operating budget. For example, as shown in the following
chart, the difference between revenues and FAA’s operating budget came from the
General Fund.

                  General Fund Contribution for FY 2003
                                 ($ in Billions)
                                                        FY 2003
             Estimated Trust Fund Contribution            $10.3
             Less Airport Funding                        ($3.4)
             Less Modernization                          ($3.0)
             Less Research and Development               ($0.1)
             Residual Trust Fund Revenues Available for    $3.8
             Operations
             Operations Budget                             $7.1
             Difference (Amount from the General Fund      $3.3
             for Operations)

For FY 2004, FAA’s budget request of $14 billion exceeds projected Trust Fund
revenues by over $3 billion. Assuming no new taxes, this shortfall will have to be
made up either by drawing down the uncommitted balance of the Trust Fund or
tapping the General Fund.

Making FAA a Performance-Based Organization Through Controlling
Costs in Operations and Major Acquisitions

Controlling Operating Costs. Although Congress envisioned that personnel
reform would result in more cost-effective operations, this has not occurred. Since
1996, FAA’s operating costs have increased substantially. As shown in the
following graph, FAA’s operations budget, which is 82 percent payroll costs, has
increased from $4.6 billion in FY 1996 to $7.6 billion in FY 2004–an increase of
over 65 percent. Given the decline in Aviation Trust Fund revenues and the
financial situation of the airlines, a continuation of this growth can no longer be
sustained.




                                        9
               FAA's Operations Budget - FY 1996 to FY 2004
                               $ in Billions

              $8
              $7
                                                                                                       $7.6
              $6                                                                             $7.1
                                                                         $6.9
              $5                                               $6.0 $6.6
              $4                          $5.3 $5.6
                    $4.6        $5.0
              $3
              $2
              $1
              $0
                      FY 1996

                                FY 1997

                                          FY 1998

                                                    FY 1999

                                                               FY 2000

                                                                         FY 2001

                                                                                   FY 2002

                                                                                             FY 2003

                                                                                                       FY 2004
                   * FY 2002 excludes onetime anti-terrorist supplemental funding.


Much of the increase in operations costs has been a result of salary increases from
collective bargaining agreements negotiated under FAA’s personnel reform
authority. The 1998 collective bargaining agreement with the National Air Traffic
Controllers Association (NATCA), which created a new pay system for
controllers, was a significant cost driver. Under the agreement, controllers’
salaries increased substantially. For example,

• The average base salary for fully certified controllers has now risen to over
  $106,000–a 47 percent increase over the 1998 average of about $72,000 (as
  shown in the table below). This compares to an average salary increase for all
  other FAA employees during the same period of about 32 percent, and for all
  Government employees in the Washington, D.C. area of about 30 percent.

                   Average Base Salaries for FAA Employees

               Average Base Salary                  Fully Certified Air Non-Controller
               (Including Locality)                 Traffic Controllers FAA Employees

               2003                                    $106,580*                             $78,080

               1998                                           $72,580                        $59,200

               Percentage Increase                              46.8                           31.9
               From 1998 to 2003
                                            *After 4.9 percent increase.

When premium pays (such as overtime and Sunday pay) are added, controllers’
total salaries can be substantially higher. For example,


                                                              10
• The 10 highest paid air traffic controllers in calendar year (CY) 2002 earned
  between $192,000 and $214,000. In fact, over 1,000 controllers earned over
  $150,000 in CY 2002 (approximately 6.7 percent of the controller workforce).
  That number compares to only 65 controllers that earned over $150,000 in
  2000 (approximately 0.4 percent of the controller workforce).

Following the NATCA agreement, other FAA workforces began organizing into
collective bargaining units including employees from the Office of Chief Counsel,
Office of Financial Services, and Office of Airports. Today, FAA has
48 collective bargaining units as compared to 19 collective bargaining units in
1996.

The dramatic increase in bargaining units has complicated FAA’s plans for
fielding its agency-wide compensation system (created in April 2000), because
FAA’s 1996 reauthorization requires that FAA negotiate compensation with each
of its collective bargaining units. This has also complicated FAA’s plans to create
a link between pay and performance. The agency-wide pay system does away
with automatic Government-wide pay increases, and instead is designed to provide
variable pay increases based on an individual’s and the agency’s overall
performance. However, several of FAA’s collective bargaining agreements have
provisions that allow for higher increases than allowed under the agency-wide pay
system without considering an individual’s performance. For example,

• This year under terms of the NATCA collective bargaining agreement, all
  controllers received an automatic pay increase of 4.9 percent, regardless of
  their individual performance. FAA provided a similar increase to all Air
  Traffic field managers and supervisors.

• Because of these contractual requirements, only about 36 percent of all FAA
  employees receive pay increases based on performance as established in the
  agency-wide pay system (FAA’s core plan). The remainder of FAA
  employees receive largely automatic pay increases.

FAA has also been less than effective in managing its labor agreements. For
example, outside the national collective bargaining agreement with NATCA, FAA
and the union have entered into hundreds of side bar agreements or MOUs. These
agreements can cover a wide range of issues such as implementing new
technology, changes in working conditions and−as a result of personnel
reform−bonuses and awards, all of which are in addition to base pay.




                                        11
We found FAA’s controls over MOUs are inadequate. For example, there is:
- no standard guidance for negotiating, implementing, or signing MOUs;
- broad authority among managers to negotiate MOUs and commit the agency;
- no requirement for including labor relations specialists in negotiations; and
- no requirement for estimating potential cost impacts prior to signing the
  agreement.

In addition, FAA has no system for tracking MOUs, but estimates there may be
between 1,000 and 1,500 MOUs agency-wide. The total cost implications
associated with these MOUs are not known. While many serve very legitimate
purposes, we found several agreements that had substantial costs. For example,

• As part of the controller pay system, FAA and NATCA entered into a national
  MOU providing controllers with an additional cost of living adjustment. As a
  result, at 111 locations, controllers receive between 1 and 10 percent in
  “Controller Incentive Pay,” which is in addition to Government-wide locality
  pay. In FY 2002, the total cost for this additional pay was about $27 million.

We reviewed a number of MOUs that were not cost-effective and, in our opinion,
neither necessary nor in the best interest of the Government. For example,

• One MOU we reviewed allows controllers transferring to larger consolidated
  facilities to begin earning the higher salaries associated with their new
  positions substantially in advance of their transfer or taking on new duties. At
  one location, controllers received their full salary increases 1 year in advance
  of their transfer (in some cases going from an annual salary of around $54,000
  to over $99,000). During that time, they remained in their old location,
  controlling the same air space, and performing the same duties.

We have briefed Administrator Blakey on our concerns regarding MOUs, and we
are working with the Administrator and her staff to address this issue.

Improving Management of Major Acquisitions. FAA spends almost $3 billion
annually on a wide range of new radars, satellite-based navigation systems, and
communication networks. Historically, FAA’s modernization initiatives have
experienced cost increases, schedule slips, and shortfalls in performance. While
progress has been made with Free Flight Phase 1, problems persist with other
major acquisitions.

In 1996, Congress exempted FAA from Federal procurement rules that the agency
said hindered its ability to modernize the air traffic control system. Now, after
nearly 7 years, FAA has made progress in reducing the time it takes to award
contracts, but acquisition reform has had little measurable impact on bottom line


                                       12
results—bringing large-scale projects in on time and within budget. The following
chart provides cost and schedule information on five projects largely managed
since FAA was granted acquisition reform.

                           Estimated         Percent
                         Program Costs        Cost Implementation Schedule
     Program           (Dollars in Millions) Growth
                     Original Current                Original   Current
   WAAS               $892.4       $2,922.4* 227 % 1998-2001 2003-TBD**

   STARS              $940.2        $1,690.2**           80 % 1998-2005 2002-TBD**

   ASR-11             $752.9           $916.2            22 % 2000-2005 2003-2008

   WARP               $126.4           $152.7            21 % 1999-2000 2002-2003

   OASIS              $174.7           $251.0            44 % 1998-2001 2002-2005
   * This includes the cost to acquire geostationary satellites and costs are under review.
   **Costs and schedules are under review.

These five acquisitions have experienced cost growth of over $3 billion and
schedule slips of 3 to 5 years. Problems with cost growth, schedule slips, and
performance shortfalls have serious consequences—they result in costly interim
systems, a reduction in units procured, postponed benefits (in terms of safety and
efficiency), or “crowding out” other projects.

For example, STARS, which commenced operations at Philadelphia this past year,
has cost FAA more than $1 billion since 1996. Most of these funds were spent on
developing STARS, not delivering systems. When the STARS development
schedule began slipping, FAA procured an interim system, the Common
Automated Radar Terminal System (Common ARTS) for about $200 million.
FAA is now operating Common ARTS (software and processors) at approximately
140 locations.

Moreover, in FY 2002 alone, FAA reprogrammed over $40 million from other
modernization efforts (data link communications, oceanic modernization, and
instrument landing systems) to pay for cost increases with STARS. As a result of
these cost and schedule problems, FAA officials have proposed scaling back the
program from 182 systems for $1.69 billion to a revised estimate of 73 systems for
$1.33 billion. No final decision has been made, and FAA is currently reevaluating
how many STARS systems it can afford.




                                                    13
Several other modernization projects are experiencing setbacks. The Integrated
Terminal Weather System, or “ITWS” provides air traffic managers with a
20-minute forecast of weather conditions near airports. FAA planned to complete
deployment of all 38 systems by 2004 at a cost of about $286 million, but
production costs have tripled from $360,000 to $1.1 million per system. FAA
cannot execute the program as intended and, absent additional funding, will defer
adding several planned improvements and may procure fewer systems than
intended.

In addition, FAA intended to have the Local Area Augmentation System
(Category I)—a new precision approach and landing system—in operation in
2004. It is now clear that this milestone cannot be met because of additional
development work, evolving requirements, and unresolved issues regarding how
the system will be certified as safe for pilots to use. Moreover, the more
demanding Category II/III services (planned for 2005) are now a research and
development effort with an uncertain end state. This means that benefits
associated with the new precision approach and landing system will be postponed.

Our work has also found that FAA has not followed sound business practices for
administering contracts. We have consistently found a lack of basic contract
administration at every stage of contract management from contract award to
contract closeout. For example, we found that Government cost estimates were:
− prepared by FAA engineers, then ignored;
− prepared using unreliable resource and cost data;
− prepared by the contractor (a direct conflict of interest); or
− not prepared at all.

FAA has stated that it will take actions to address these concerns–the key now is
follow through.

In addition to strengthening contract oversight, FAA needs to develop metrics to
assess progress with major acquisitions, make greater use of Defense Contract
Audit Agency audits, and institute cost control mechanisms for software-intensive
contracts. With schedule slips and cost overruns in major acquisitions, it should
be noted that FAA is not getting as much for its $3 billion annual investment as it
originally expected.

Tracking Costs. An effective cost accounting system is fundamental to measuring
the cost of FAA activities and provides the basis for setting benchmarks and
measuring performance. It represents the underpinning for FAA’s operation as a
performance-based organization through the development of good cost
information for effective decision-making. The 1996 Reauthorization Act for
FAA required the agency to develop a cost accounting system. However, after

                                        14
over 6 years and $38 million, FAA is now planning to complete its CAS by
September 2003, assuming no further slippage. Additionally, we found that in two
of the five lines of business where the CAS has been implemented, problems exist
such as not allocating costs to individual facilities, which limit the system’s
usefulness.

To have a credible cost accounting system and to effectively measure employee
productivity, FAA needs an accurate labor distribution system. Cru-x is the labor
distribution system FAA chose to track hours worked by air traffic employees
(FAA’s largest workforce). However, in September 2002, FAA and NATCA
entered into an MOU that significantly reduced the system’s ability to track
employee productivity. Specifically, the MOU eliminated the requirement for
controllers to sign in or out, and Cru-X was not programmed to identify or assign
the time controllers spend on collateral activities when not controlling air traffic.
We brought this issue to the attention of the Administrator, and she directed that
appropriate internal controls be incorporated into the Cru-X labor distribution
system.

Building Aviation System Capacity and More Efficient Use of Airspace
to Prevent a Repeat of the Summer of 2000

FAA needs to be strategically positioned for when demand returns through a
combination of new runways, better air traffic management technology, airspace
redesign, and greater use of non-hub airports; it would be shortsighted to do
otherwise. FAA estimates that air traffic (measured in terms of operations) will
return to its pre-September 11th growth pattern between 2005 and 2007. FAA’s
OEP is the general blueprint for increasing capacity.

As currently structured, the plan includes over 100 different initiatives (including
airspace redesign initiatives, new procedures, and new technology) and is expected
to cost in the $11.5 to $13 billion range, excluding the costs to build new runways,
but the true cost of implementing the plan is unknown. FAA estimates the plan
will provide a 30 percent increase in capacity over the next 10 years assuming all
systems are delivered on time, planned new runways are completed, and airspace
users equip with a wide range of new technologies.

While airspace changes and new controller automated tools will enhance the flow
of air traffic, it is generally accepted that building new runways provides the
largest increases in capacity. The OEP now tracks 12 runways scheduled for
completion in the next 10 years. Four of the runway projects are expected to be
completed in 2003 at Denver, Houston, Miami, and Orlando airports. However,
construction on several other airports has been delayed from 3 months to 2 years.
FAA needs to continue to closely monitor new runway projects, (see Attachment).


                                         15
Progress has been made with OEP initiatives, but much uncertainty exists about
how to move forward with systems that require airlines to make investment in new
technologies. FAA and the Mitre Corporation estimate the OEP would cost
airspace users $11 billion to equip with new technologies. For example, FAA and
Mitre estimate the cost to equip a single aircraft with Automatic Dependent
Surveillance-Broadcast ranges from $165,000 to almost $500,000, and the cost for
Controller-Pilot Data Link Communications ranges from $30,000 to $100,000
exclusive of the cost to take the aircraft out of revenue service.

FAA is working to retool the OEP. FAA needs to synchronize the OEP with
FAA’s budget, set priorities, and address uncertainties with respect to how quickly
airspace users will equip with new technologies. It also needs to ensure the costs
associated with multibillion-dollar modernization projects not in the OEP are
considered when establishing priorities and are integrated with OEP initiatives.

It is a good time to rethink what reasonably can be accomplished over the next 3 to
5 years, and what will be needed by FAA and industry given the decline in Trust
Fund revenue and the financial condition of the airlines. According to the
Associate Administrator for Research and Acquisition, it is likely that the OEP
will shift from a plan that relied heavily on airspace users to equip their aircraft to
one that places greater emphasis on airspace changes and procedural changes that
take advantage of equipment already onboard aircraft. FAA has an opportunity to
set priorities, flesh-out benefits, adjust to a changing business model, and develop
a reasonable path for moving forward with the OEP before system-wide capacity
problems return.

Striking a Balance Between How Airport Funds Will Pay for Capacity
and Security Initiatives

A major issue for airports is funding the next phase of EDS integration. Thus far,
nearly all EDS equipment has been lobby-installed. TSA’s planned next step
(integrating the EDS equipment into airport baggage systems) is by far the most
costly aspect of full implementation. The task will not be to simply move the
machines from lobbies to baggage handling facilities but will require major
facility modifications. We have seen estimates that put the costs of those efforts at
over $3 billion, and this is an almost immediate issue facing the airports.

A key question is who will pay for those costs and how. While the current AIP
has provided some funding in the past for aviation security, we urge caution in
tapping this program until we have a firm handle on airport safety and capacity
requirements. In FY 2002, airports used over $561 million of AIP funds for
security-related projects. In contrast only about $56 million in AIP funds were


                                          16
used for security in FY 2001. Continuing to use a significant portion of AIP funds
on security projects will have an impact on airports’ abilities to fund capacity
projects. The following chart shows how AIP funds were used and for what type
of project in FY 2002.
                        What Were FY 2002 AIP Grants
                                 Used For?
                               New Airports
                     Safety 4%     3%       Planning 3%
                    Terminal 6%
                  Block Grant
                      6%
                   Noise/
                 Environment
                                                     Airfield 52%
                     9%
                       Security 17%

                                       Source: FAA
AIP funds as well as passenger facility charges (PFCs) are eligible sources for
funding this work. However, according to FAA, PFCs are generally committed
for many outlying years and it would be difficult, requiring considerable
coordination among stakeholders (i.e. airports and airlines), to make adjustments
for security modifications at this point. The following chart shows how PFC funds
have been used since 1992.


                      What Have PFCs Been Used For
                              Since 1992?
                       New Denver
                       Airport 8%
                         Noise 6%                 Landside 31%
                       Roadways
                         10%

                        Airfield 17%
                                                 Interest 28%


                                       Source: FAA
There have also been proposals to raise the cap on PFCs; however, we urge
caution before adding additional fees or taxes for air travel. Consumers already
pay a significant amount in aviation taxes and fees. For example, a $100 non-stop
round trip ticket includes approximately $26 (26 percent) in taxes and fees. Put
differently, the airlines receive approximately $74 and the government and
airports get $26.       A $200 single-connection round trip ticket includes



                                           17
approximately $51 (26 percent) in taxes and fees. Here the airline gets
approximately $149 and the government and airports get $51.

Aviation Safety As FAA’s Top Priority

The U.S. air transport system is the safest in the world and safety remains the
number one priority for FAA. Until the recent Air Midwest crash in Charlotte,
there had not been a fatal commercial aviation accident in the United States in
14 months.

Progress has been made this past year in reducing the risk of aviation accidents
due to operational errors and runway incursions. Operational errors (when planes
come too close together in the air) and runway incursions (potential collisions on
the ground) decreased by 11 percent and 17 percent, respectively, in FY 2002.
Notwithstanding these improvements, operational errors and runway incursions
should remain an area of emphasis for FAA because at least three serious
operational errors and one serious runway incursion (in which collisions were
narrowly averted) occur, on average, every 10 days.

In the current financially-strapped aviation environment, FAA must remain
vigilant in its oversight to sustain a high level of aviation safety. Currently,
airlines are restructuring and changing the way they operate. For example, carriers
are standardizing their aircraft fleet (e.g., parking older aircraft), using aircraft
repair stations to complete more of their maintenance work, and relying on
internal flight operational quality assurance programs to reduce costs and increase
safety. FAA has systems in place to closely monitor air carriers’ operations, such
as aircraft maintenance, once an airline has declared bankruptcy. FAA has
increased surveillance at these carriers based on analysis of inspectors’
observations and industry databases.

Additionally, we are encouraged by the Administrator’s commitment to programs
such as Flight Operational Quality Assurance (FOQA). FOQA provides objective,
quantitative data on what occurs during flight rather than what is subjectively
reported by individuals. FAA could use these data to identify safety trends and
accident precursors.

A word of caution: FAA needs to pay close attention to the level of oversight it
provides for repair stations. In the past 5 years, there has been a significant
increase in air carriers’ use of these facilities. In 1996, major air carriers spent
$1.6 billion (37 percent of their total maintenance costs) for outsourced aircraft
maintenance. Whereas, in 2001, the major air carriers outsourced $2.9 billion
(47 percent of their total maintenance cost). FAA needs to consider this shift in
maintenance practices when planning its safety surveillance work.


                                         18
That concludes my statement Mr. Chairman. I would be pleased to address any
questions you or other members of the Subcommittee might have.




                                    19
                                                                                                 Attachment

              Status of Major Runway Projects as of February 2003
                  (Information Provided by FAA and Airports)
                Estimated                                 Cost           Challenges to Timely Completion
    Airport     Completion           Phase(s)           Estimate           (as provided by the airport)
                  Date                                  (Millions)
                                                                     ü   Acceptability of runway procedures for
Miami                2003           Construction          $206           simultaneous operations on closely spaced
                                                                         parallel runways (800 feet in this case).
Orlando             20031           Construction          $222       ü   Construction weather delays.
Houston             20032           Construction          $267       ü   None cited.
Denver              2003            Construction          $169       ü   None cited.


                                                                     ü   Construction weather delays.
                                                                     ü   Contractor ability to carry large bonds and
Minneapolis         20043           Construction          $510           complete existing contracts on time after
                                                                         unexpected accidents, labor actions, work
                                                                         force problems, and material shortages.
                   Phase 1:                                          ü   Relocation of major primary road.
                  Completed                               $230       ü   Relocation of NASA facilities with associated
Cleveland       Opened Dec. 12,     Construction
                    2002
                                                          $211           landfills.
                2004 (Phase 2)                                       ü   Mitigation for major creek.

Cincinnati          2005            Environmental         $246       ü   Timely land acquisition.

                                                                     ü   Obtaining fill material for the runway.
                                                                     ü   Local authorities’ relocation of existing road,
                                                                         utilities, and NAVAIDs.
Atlanta             20064           Construction         $1,284      ü   FAA funding and installation of NAVAIDs.
                                                                     ü   FHWA and Georgia DOT design concurrence
                                                                         on runway support structures for the runway
                                                                         portion that extends over I-285.
                                                                     ü   Public and political opposition, including
                                                                         lawsuits from opposing groups and
                                                                         organizations.
Boston              20065           Environmental         $100
                                                                     ü   Maintaining current operations during
                                                                         construction.
                                                                     ü   Availability of NAVAIDS.

St. Louis           2006            Construction         $1,100      ü   None cited.


1
  Orlando’s runway completion date slipped from August to October 2003 because of reduced revenues and
the economic downturn.
2
  Houston has slipped the runway completion date from April to October 2003 because of construction
difficulties associated with a landfill.
3
  Minneapolis has slipped its completion date by a year from 2003 to 2004 because of the economic
impacts.
4
  Atlanta slipped the runway completion date by one year to May 2006 from May 2005 due to lawsuits
related to the fill dirt.
5
  Boston has slipped the runway completion date from December 2005 to April 2006.


                                                   20
                                                                       Attachment (Continued)

       Status of Major Runway Projects as of February 2003 (continued)


                   Estimated                               Cost            Challenges to Timely Completion
    Airport        Completion            Phase(s)        Estimate
                     Date                                (Millions)*
                                                                             (as provided by the airport)
                                                                       ü   Obtaining waiver from FAA for 4,000 ft.
Dulles                  2007           Environmental        $155
                                                                           separation from parallel runway.

                                                                       ü   U.S. Army Corps of Engineers permit for
                                       Environmental       $773 -
Seattle                 20086                                              wetland fills.
                                      and Construction      $948
                                                                       ü   Pending citizen lawsuits.




6
    Seattle moved its deadline from November 2006 to November 2008 due to environmental concerns.


                                                    21
